IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

PEDRO CARRACO, Jr, aka,

Pedro Carrasco, PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

MOTION TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 28, United States Code, ยง 1915(a) and Rule 39 of this Court, applicant
asks for leave to file the Petition for Writ of Certiorari to the Ninth Circuit Court of Appeals
without prepayment of fees or costs in forma pauperis.
The undersigned counsel was appointed pursuant to 18 U.S.C. ยง 3006A. Therefore, it is
requested that the Court grant leave to file the Petition for Writ of Certiorari without prepayment

of fees or costs in forma pauperis.

I declare under penalty of perjury under the laws of the United States of American, the

foregoing is true and correct.

    

Dated this 10th day of November, 2020.

Respectfylly S ws

Stephen R. Hormel, Hormel Law Office LLC
17722 East Sprague Avenue

Spokane Valley, WA 99016

Telephone: (509) 926-5177

Facsimile: (509) 926-4318

Attorney for Carrasco
